                  U.S. Department of Agriculture

                     Office of Inspector General
                                Northeast Region




        Audit Report

Export Credit Guarantee Program




                          Report No. 07601-2-Hy
                                      July 2008
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




July 22, 2008

REPLY TO
ATTN OF:        07601-2-Hy

TO:             Michael W. Yost
                Administrator
                Foreign Agricultural Service

ATTN:           Steven S. Rhodes
                Director
                Compliance, Security, and Emergency Planning Division

FROM:           Robert W. Young /s/
                Assistant Inspector General
                  for Audit

SUBJECT:        Export Credit Guarantee Program


This report presents the results of our audit of the Export Credit Guarantee Program. Your
response to the official draft, dated June 30, 2008, is included as exhibit A. Excerpts of your
response and the Office of Inspector General’s position are incorporated into the Finding and
Recommendations sections of the report. Based on your response, we accepted management
decision on one of the report’s two recommendations. Please follow your agency’s internal
procedures in forwarding documentation for final action to the Office of the Chief Financial
Officer.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the timeframes for implementing Recommendation 1. Please note that the regulation
requires management decision to be reached on all findings and recommendations within 6
months from report issuance and final action to be taken within 1 year of the date of management
decision.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this audit.
Executive Summary
Export Credit Guarantee Program (Audit Report No. 07601-2-Hy)

Results in Brief    Our audit of Foreign Agricultural Service’s (FAS) Export Credit Guarantee
                    Program was designed to identify and evaluate controls over the program
                    including the review, approval, and monitoring of export credit guarantees.
                    This program was established to increase the profitability of farming and
                    increase opportunities for U.S. agricultural commodities. The credit
                    guarantees encourage exports to buyers in countries where credit is necessary
                    to maintain or increase U.S. sales but where financing may not be available
                    without the guarantees. In fiscal year (FY) 2007, FAS processed 941 General
                    Sales Manager (GSM)-102 program loan guarantee applications valued at
                    $1.4 billion.

                    Our review of the processes associated with applications, bank and country
                    assessments, loan defaults, and collections generally found that FAS
                    developed and implemented the necessary internal controls for the
                    GSM-102 program. Program management had also demonstrated a
                    commitment to internal controls as evidenced by their implementation of
                    Office of Management and Budget’s (OMB) Circular A-123, “Management’s
                    Responsibility for Internal Controls,” reviews in FY 2006 and 2007. The
                    FY 2006 OMB Circular A-123 review found eight low risk deficiencies, most
                    of which had been corrected at the time of our review. The deficiencies
                    disclosed the need to update or establish procedures and processes. Our
                    review noted additional areas where improvements could be made to the
                    program’s internal controls and where formalizing the controls is needed.

                    •    FAS implemented a risk-based premium structure for the
                         GSM-102 program in July 2005 in an attempt to avoid $4 billion in trade
                         sanctions imposed by the World Trade Organization (WTO). FAS’
                         guarantee premiums were based on country risk; however, the risk of
                         default is a combination of country and bank risk (i.e., the soundness of
                         the foreign bank). The country-based premium structure was chosen
                         because it could be implemented in time to meet the compliance deadline
                         imposed by WTO. As a result, the premiums charged for
                         GSM-102 guaranteed loans are not completely commensurate with the
                         risks of making the loan guarantee.

                     •   We found that FAS needs to develop and implement controls for
                         safeguarding GSM-102 claim files. Originally, the Farm Service Agency
                         (FSA) maintained all claim files. However, in September 2005, the
                         control of claim files was divided between FAS and FSA. FAS
                         controlled claims against foreign banks that are privately owned
                         (i.e., non-sovereign banks) and FSA retained control over claims against
                         foreign government-sponsored banks (i.e., sovereign banks). We

USDA/OIG-Audit No.07601-2-Hy                                                               Page i
                                            identified that the claim files for non-sovereign banks located in three
                                            countries had not been transferred to FAS at the time of our fieldwork
                                            and could not be readily produced. FAS officials were subsequently able
                                            to provide these records for our review. Subsequent to our audit
                                            fieldwork, control and possession of all claim files were transferred to
                                            FAS. At the exit conference in May 2008, FAS officials provided an
                                            overview of actions they are implementing to adequately control claim
                                            files.

                                     We did not evaluate whether export credit guarantees constituted a subsidy in
                                     violation of trade agreements. This dispute was arbitrated by WTO. In
                                     September 2004, WTO ruled that the GSM-102 program was subsidizing
                                     export activities because premiums were inadequate to cover long-term
                                     operating costs and losses. In response, FAS modified the GSM-102 program
                                     in July 2005 to bring it into compliance with the WTO ruling. Specifically,
                                     FAS tightened eligibility standards, increased guarantee premiums, and
                                     implemented a risk-based premium structure. In July 2007, WTO issued an
                                     interim ruling that found that the United States had not adequately complied
                                     with the original WTO ruling from September 2004. The setback to the
                                     United States has been acknowledged by the former Secretary of Agriculture,
                                     the U.S. Trade Representative, and Members of Congress. The final ruling
                                     issued in December 2007 affirmed the interim ruling regarding the
                                     GSM-102 program.
                                     Because the long-term effect of changes to the GSM-102 program will not
                                     become apparent for several more years, we concluded that it is too early to
                                     assess the effect of the July 2005 program changes on default rates and
                                     program activity.

Recommendations
In Brief                             FAS needs to develop a new guarantee fee structure that includes the
                                     financial risk of both the foreign country and bank itself. FAS also needs to
                                     develop and implement a records management system that complies with
                                     applicable departmental regulation (DR). 1

Agency Response
                                    FAS agreed with the report’s two recommendations. We have incorporated
                                    FAS’ response in the Findings and Recommendations section of this report,
                                    along with the OIG position. FAS’ response is included as exhibit A.

OIG Position
                                    Based on FAS’ response, we accept management decision on
                                    Recommendation 2. Management decision on Recommendation 1 can be

1
    DR 3080-1, dated April 30, 2004, requires that records be maintained and safeguarded so that they are easily retrievable and protect the legal and
    financial rights of the Government.
USDA/OIG-Audit No. 07601-2-Hy                                                                                                               Page ii
                   reached once FAS has provided us with the additional information outlined in
                   the report section, “OIG Position.”




USDA/OIG-Audit No. 07601-2-Hy                                                          Page iii
Abbreviations Used in This Report


CCC                 Commodity Credit Corporation
C.F.R.              Code of Federal Regulations
DR                  Departmental Regulation
FAS                 Foreign Agricultural Service
FSA                 Farm Service Agency
FY                  Fiscal Year
GSM                 General Sales Manager
KCDC                Kansas City Data Center
OIG                 Office of Inspector General
OMB                 Office of Management and Budget
USDA                U.S. Department of Agriculture
WTO                 World Trade Organization




USDA/OIG-Audit No.07601-2-Hy                          Page iv
Table of Contents

Executive Summary .................................................................................................................................i

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1.           Guaranteed Loan Program Premiums .................................................................... 4

        Finding 1             Guaranteed Loan Premiums Not Commensurate with Default Risks..................... 4
                                 Recommendation 1 .......................................................................................... 4

    Section 2.           Internal Controls Need Strengthening ..................................................................... 6

        Finding 2             Claim Files Need to be Safeguarded ....................................................................... 6
                                  Recommendation 2 .......................................................................................... 7

Scope and Methodology.......................................................................................................................... 9

Exhibit A – Agency Response .............................................................................................................. 12




USDA/OIG-Audit No.07601-2-Hy                                                                                                              Page v
Background and Objectives
Background              The Agricultural Trade Act of 1978 established the Export Credit Guarantee
                        Program. The purpose of the program was to increase the profitability of
                        farming and increase opportunities for the U.S. farms and agricultural
                        enterprises by (1) increasing the effectiveness of the U.S. Department of
                        Agriculture (USDA) in agricultural export policy formulation and
                        implementation; (2) improving the competitiveness of U.S. agricultural
                        commodities and products in the world market; and (3) providing for the
                        coordination and efficient implementation of all agricultural export
                        programs.

                        USDA’s current export credit guarantee program activity is limited to the
                        General Sales Manager (GSM) 102 program. Other export credit guarantee
                        programs exist, but these programs are not currently active. Implementing
                        regulations for the programs can be found in Title 7 Code of Federal
                        Regulations (C.F.R.) § 1493. As shown in the following table, program
                        activity has declined in recent years.

                         Fiscal Year      Number of Approved              Guarantee Amount
                                             Applications
                            2004                2,165                         $2.9 billion
                            2005                2,013                         $2.2 billion
                            2006                1,299                         $1.4 billion
                            2007                 941                          $1.4 billion
.
                        USDA’s Commodity Credit Corporation (CCC) administers export credit
                        guarantees for commercial financing of U.S. agricultural exports. The
                        guarantees encourage exports to buyers in countries where credit is
                        necessary to maintain or increase U.S. sales but where financing may not be
                        available without CCC guarantees. The GSM-102 program issues loan
                        guarantees for up to 3 years that underwrite credit extended by U.S. banks to
                        approved foreign banks using irrevocable letters of credit to pay for U.S.
                        food and agricultural products sold to foreign buyers.

                        CCC guarantees payments due from approved foreign banks to exporters or
                        financial institutions in the United States. However, the financing must be
                        obtained through normal commercial sources. Typically, 98 percent of
                        principal and a portion of interest are covered by a guarantee. Because
                        payment is guaranteed, financial institutions in the United States can offer
                        competitive credit terms to foreign banks.

                        CCC must qualify exporters for participation before accepting guarantee
                        applications. Financial institutions must meet established criteria and be

    USDA/OIG-Audit No. 07601-2-Hy                                                              Page 1
                    approved. CCC sets limits and advises each approved foreign bank on the
                    maximum guarantee amount for that bank.

                    The exporter negotiates terms of the export credit sale with the importer. The
                    exporter usually works closely with the eligible U.S. financial institution to
                    ensure that arrangements are firmly in place for the U.S. financial institution
                    to pay the exporter and to extend credit to the foreign bank. Once a firm sale
                    exists, the qualified U.S. exporter applies for a payment guarantee before the
                    export date. The exporter pays a fee calculated on the dollar amount
                    guaranteed. Fee rates are based on the country risk associated with the
                    country where the foreign bank is located, as well as the repayment term and
                    repayment frequency (annual or semi-annual) under the guarantee.

                    The CCC-approved foreign bank issues an irrevocable letter of credit to the
                    U.S. exporter, confirmed by the U.S. financial institution agreeing to extend
                    credit to the foreign bank. If the foreign bank fails to make any payment as
                    agreed under the GSM-102 guarantee, the exporter or assignee must submit
                    a notice of default to CCC. A claim for loss must be filed within 6 months of
                    the notice of default. Once the claim for loss is received, CCC pays the
                    claim. CCC reserves the right to collect the defaulted loan funds from the
                    U.S. financial institution in exchange for paying off the loan. CCC is then
                    responsible for collecting the unpaid loan balances plus interest.

                   The Uruguay Round of trade negotiations established the World Trade
                   Organization (WTO) on January 1, 1995. As of January 11, 2007, WTO had
                   150 members including the United States. WTO is an international
                   organization dealing with the global rules of trade between nations. Its main
                   function is to ensure that trade flows as smoothly, predictable, and as freely
                   as possible. The WTO’s procedures for resolving trade disagreements under
                   the Dispute Settlement Understanding are vital for enforcing the rules.
                   Countries bring disputes to WTO if they think their rights under agreements
                   are being infringed. Specially-appointed independent experts make
                   judgments based on interpretations of the agreements and individual
                   country’s commitments.

                   In September 2004, WTO ruled against the United States in a trade dispute
                   concerning whether export credit guarantees constituted a subsidy in
                   violation of trade agreements. In response, the Foreign Agricultural Service
                   (FAS) modified the GSM-102 program in July 2005 to bring it into
                   compliance with the WTO ruling. Specifically, FAS eliminated the
                   Intermediate Export Guarantee Program, tightened eligibility standards,
                   increased guarantee premiums, implemented a risk-based premium structure,
                   requested a legislative change to remove the one-percent premium cap, and
                   began reviewing the fee structure on a quarterly basis to determine the need
                   for premium adjustment. In July 2007, WTO issued an interim ruling that
                   found that the United States had not complied with the original WTO ruling
USDA/OIG-Audit No. 07601-2-Hy                                                                Page 2
                                       from September 2004. This setback to the United States has been
                                       acknowledged by the former Secretary of Agriculture, the U.S. Trade
                                       Representative, and Members of Congress. The final ruling, issued in
                                       December 2007, affirmed the interim ruling regarding the
                                       GSM-102 program.

                                       The Credit Programs Division performed an Office of Management and
                                       Budget (OMB) Circular A-123 review in FY 2006 and FY 2007. OMB
                                       Circular A-123 defines management’s responsibility for internal controls in
                                       Federal agencies. The reexamination of existing internal control requirements
                                       for Federal agencies was initiated in light of new internal control
                                       requirements for publicly-traded companies contained in the Sarbanes-Oxley
                                       Act of 2002. Management is responsible for establishing and maintaining
                                       internal controls to achieve the objectives of effective and efficient
                                       operations. The revised circular became effective in FY 2006.

                                       Eight deficiencies were noted in the FY 2006 review (FY 2007 results were
                                       not available) all of which were rated low risk and short term (less than
                                       6 months). The low risk control deficiencies noted in the review are shown
                                       in the following table.

                                                                  Description                                                             Status
                                          Votes of Reconciliation Committee 2 were not properly                                          Completed
                                          documented
                                          Copies of guarantee checks were missing from files                                             Completed
                                          Supervisory specialist reviewed but did not initial                                            Completed
                                          documents
                                          No supervisory confirmation of deactivation 3 following                                        Completed
                                          default
                                          No process to ensure senior staff deactivates obligor                                         Completed
                                          Manual overrides for claims are permitted without                                             Incomplete
                                          management approval
                                          Importers and foreign banks are run against watchdog list,                                      In Process
                                          exporters and U.S. banks are not
                                          No procedures in place to ensure that notices of default are                                  Incomplete
                                          entered into information system

Objectives                             Our objectives were to identify and evaluate GSM-102 controls over the
                                       review, approval, and monitoring of export credit guarantees to ensure
                                       program integrity and to ensure that the agency is meeting its program goals,
                                       such as reducing program default rates and program administrative costs.



2
    The reconciliation committee sets the GSM-102 program level for each country and region.
3
    Upon notification of the default of an obligor the FAS information system is updated (deactivated) to prevent further loan guarantees being made to that
    obligor.
    USDA/OIG-Audit No. 07601-2-Hy                                                                                                                  Page 3
Findings and Recommendations
Section 1.             Guaranteed Loan Program Premiums
Finding 1                              Guaranteed Loan Premiums Not Commensurate with Default
                                       Risks

                                       In response to the WTO ruling in September 2004, FAS implemented a
                                       country risk-based premium structure for the GSM-102 program in
                                       July 2005. This premium structure was deficient because it did not fully
                                       address the risks CCC assumes in making the loan guarantee. The premium
                                       structure did not consider the soundness of the foreign bank; it only
                                       considered risks associated with the country. 4 In an effort to avoid the United
                                       States receiving trade sanctions of up to $4 billion annually, FAS
                                       implemented this simplified risk-based fee structure for the program that only
                                       considered country risk. As a result, the premiums charged for
                                       GSM-102 guaranteed loans are not completely commensurate with the risks
                                       of making the loan guarantee.

                                       The regulation 5 states “the payment guarantee fee rates will be based upon
                                       the length of the payment terms provided for in the export sale contract, the
                                       degree of risk that CCC assumes, as determined by CCC, and any other
                                       factors which CCC determines appropriate for consideration.”

                                       The last three defaults of the GSM-102 program occurred in FY 2004. In all
                                       three cases, the foreign banks were privately-owned, not State sponsored, and
                                       the host country was not determined to be a factor in the default. The stability
                                       of the financial condition of the banks was the sole reason for the defaults in
                                       FY 2004. However, FAS based its loan guarantee premiums on country risk
                                       and did not consider the risks associated with the foreign bank.

                                       FAS officials generally agreed that the program default risk is a combination
                                       of country risk and bank risk.

Recommendation 1
                                       Develop and implement a premium structure that is based on all major actual
                                       risks CCC assumes when making the loan guarantee (e.g., soundness of the
                                       foreign bank and associated country risk).

                                       Agency Response.

                                       FAS is currently conducting a review of the major factors to be considered
                                       when determining risk premiums. In addition to bank and country risk, these


4
    This is consistent with one of the findings from the WTO interim ruling issued in July 2007 and final ruling issued in December 2007.
5
    7 C.F.R. § 1493.70 – January 1, 2006 edition.
    USDA/OIG-Audit No. 07601-2-Hy                                                                                                           Page 4
                   include such variables as the tenor of guarantee and the degree of risk shared
                   with the guarantee holder.

                   In November 2007, FAS provided export credit guarantee program subsidy
                   estimates for the President’s FY 2009 budget. Those calculations contained
                   new assumptions based on historical analyses of funds recovered from
                   obligor on claims which CCC paid. As a result, FAS estimated a close to
                   60 percent reduction in required budget authority. FAS now is analyzing
                   actual default data compared to government-indexed default tables, and
                   hopes to be in a position to present new default assumptions to OMB in the
                   FY 2010 budget submission. The ultimate goal of this process is to have the
                   capability, at any one time, to calculate the fees needed to arrive at a budget
                   neutral program. This process will be aided by the enactment of the Food,
                   Conservation, and Energy Act of 2008. Any fee adjustments implemented
                   prior to the completion of this study would be based on incomplete data.

                   OIG Position.

                   We agree with FAS’ planned corrective action. However, to reach
                   management decision, FAS needs to provide a date for implementing a
                   revised premium structure.




USDA/OIG-Audit No. 07601-2-Hy                                                               Page 5
Section 2.   Internal Controls Need Strengthening

                     OMB Circular A-123 defines management’s responsibility for internal
                     control in Federal agencies. A reexamination of the existing internal control
                     requirements for Federal agencies was initiated in light of the new internal
                     control requirements for publicly-traded companies contained in
                     Sarbanes-Oxley Act of 2002. OMB Circular A-123 and the statute it
                     implements (i.e., the Federal Managers’ Financial Integrity Act of 1982) are
                     at the center of the existing Federal requirements to improve internal control.
                     The revised circular was effective in FY 2006.

                     Our review of the processes associated with applications, bank and country
                     assessments, loan defaults, and collections generally found that FAS
                     developed and implemented the necessary internal controls for the
                     GSM-102 program. The Credit Programs Division of FAS performed the
                     required OMB Circular A-123 review in a timely manner. Eight deficiencies
                     were noted in the FY 2006 review (FY 2007 results were not available), all of
                     which were rated low risk and short term (less than 6 months). All of the
                     deficiencies were listed as control deficiencies and concerned the need to
                     update or establish new procedures and processes. In addition, we identified
                     that claim files needed to be safeguarded.


Finding 2            Claim Files Need to be Safeguarded

                     FAS did not maintain adequate control over GSM-102 claim files. This
                     occurred because agency officials had not been designated with custodial
                     responsibility for these records. As a result, copies of documents used to
                     establish valid claims against foreign banks could not be readily produced.

                     Departmental Regulation (DR) 3080-1, dated April 30, 2004, “Records
                     Management,” requires that records be maintained and safeguarded so that
                     they are easily retrievable and protect the legal and financial rights of the
                     Government. Further, employees having custody or control over records are
                     responsible to ensure their proper use and protection. The regulation also
                     states that vital records will normally be maintained as duplicate copies of the
                     original records. FAS needs to develop controls that ensure compliance with
                     this regulation to ensure records are properly maintained and safeguarded.

                     Originally all claim files were maintained by the Farm Service Agency
                     (FSA). However, as part of a reorganization in September 2005, the control
                     of the claim files was divided between FAS and FSA. FAS controlled claims
                     against foreign banks that are privately owned (i.e., non-sovereign banks) and
                     FSA retained control over claims against foreign government-sponsored
                     banks (i.e., sovereign banks). The reorganization entailed the movement of

USDA/OIG-Audit No. 07601-2-Hy                                                                  Page 6
                   personnel, files, and equipment which coupled with inadequate records
                   management controls, contributed to FAS not being able to readily produce
                   the files.

                   In response to a request for information about outstanding claims, FAS
                   officials informed us that claim files for Uganda, Suriname, and Venezuela
                   had not been transferred to FAS. Subsequently, FAS officials were able to
                   provide these records for our review. Duplicate copies of these records were
                   not maintained. In addition, there was no centralized list of the records nor
                   had an official been designated as having custodial responsibility for these
                   records.

                   At the exit conference in May 2008, FAS and FSA officials explained that
                   the responsibility for controlling claim files changed after our audit
                   fieldwork. They stated that FAS now has possession and control of files for
                   all claims against foreign banks (i.e., sovereign and non-sovereign). FAS
                   officials provided an overview of the actions they are implementing to
                   adequately control claim files.

Recommendation 2
                   Develop and implement controls over claim files that ensure compliance with
                   DR 3080-1, “Records Management.”

                   Agency Response.

                   DR 3080-1, “Records Management,” states that each USDA agency must
                   create and maintain proper and adequate documentation of all documents
                   required to protect the legal and financial rights of the Government and of
                   persons directly affected by the Department’s activities (44 U.S.C. 3101).

                   In compliance with this policy, FAS maintains hardcopy files of all claims
                   paid under the GSM 102/103 and Supplier Credit Guarantee Programs. In
                   order to ensure that FAS also meets the requirements for duplicate records,
                   the agency is planning to implement electronic scanning of every document
                   and store all images on a database server in the Kansas City Data Center
                   (KCDC). The image documents will be catalogued and maintained in the
                   KCDC, where full data backups will be performed on a nightly basis and the
                   backup tapes stored off-site for maximum data security.

                   The data warehouse of imaged documents will ensure that all claims data are
                   protected against loss and will provide a centralized collection of claims
                   records. System security protections will also ensure that access is restricted
                   to those with the proper designated authorities. This duplicate maintenance of
                   paper and electronic files will fully meet all requirements of DR 3080-1 and
                   ensure that FAS is protecting the legal and financial rights of the U.S.

USDA/OIG-Audit No. 07601-2-Hy                                                               Page 7
                   Government. Pending the receipt of funding, this process will be
                   implemented by the end of this calendar year.

                   OIG Position.

                   We accept FAS’ management decision.




USDA/OIG-Audit No. 07601-2-Hy                                                 Page 8
Scope and Methodology
                                     The audit fieldwork was conducted from January to July 2007 at FAS’
                                     Headquarters, Washington, D.C., and at FSA/CCC’s Financial Management
                                     Division in Alexandria, Virginia. 6 We reviewed GSM-102 program activity
                                     from FY 2004 through FY 2007. As shown in the following table, program
                                     activity has declined in recent years.

                                        Fiscal Year           Number of Approved                          Guarantee Amount
                                                                 Applications
                                            2004                    2,165                                        $2.9 billion
                                            2005                    2,013                                        $2.2 billion
                                            2006                    1,299                                        $1.4 billion
                                            2007                     941                                         $1.4 billion

                                    To answer our objectives we performed the following:

                                    •    We reviewed 18 of 388 GSM-102 loan guarantees totaling $89.3 million
                                         that were approved during FY 2007 to determine compliance with
                                         program requirements. We judgmentally selected two loan guarantees for
                                         each of the nine countries or regions that were active participants in the
                                         program in February 2007. There were five regions (Caribbean, Central
                                         America, Eurasia, South America and Southeast Asia) and four countries
                                         (Mexico, Russia, South Korea, and Turkey). We generally selected the
                                         highest and lowest guaranteed loans.

                                    •    We reviewed the claim files for the three banks that defaulted in
                                         FY 2004 to determine program compliance. CCC-guaranteed loan
                                         defaults at the three banks totaled $13.6 million. The loan guarantee
                                         defaults reviewed were the most recent defaults. Overall CCC has
                                         outstanding loan guarantee defaults that involve 32 countries and
                                         $895 million in debt as of December 31, 2006.

                                    •    We reviewed the bank risk analysis performed for 10 of the 274 foreign
                                         banks located in 10 countries to determine the sufficiency of review and
                                         compliance with established procedures.

                                    •    We reviewed the risk assessment for four countries (i.e., Russia, Mexico,
                                         South Korea, and Turkey) with the largest markets for the
                                         GSM-102 program to determine the sufficiency of the analysis and
                                         adherence to program requirements. We also reviewed the country risk
                                         assessment of China because it is a very large potential market; however,

6
    In April 2008, we reviewed the December 2007 final ruling by WTO to confirm that the final ruling affirmed the findings of the interim ruling
    regarding the GSM-102 program.
    USDA/OIG-Audit No. 07601-2-Hy                                                                                                        Page 9
                                          it is not currently active in the program. The five were selected from the
                                          20 countries or regions that were eligible to participate in the GSM-102 in
                                          FY 2006. 7

                                     •    We reviewed all 30 exposure reports from July 2004 through
                                          December 2006 to determine significant changes in account balances on a
                                          monthly basis.

                                      To obtain background data on the GSM-102 program were reviewed the
                                      following documents.

                                      •    FAS policy and procedures

                                      •    WTO reports on the trade dispute with Brazil including the original
                                           ruling and subsequent appeals

                                      •    Agency financial reports, budgetary explanatory notes and annual
                                           performance reports

                                      •    FY 2007 Farm Bill Proposal

                                      •    Office of Inspector General and Government Accountability Office audit
                                           reports concerning the GSM-102 program

                                      •    Agency fact sheets and press releases

                                      •    FY 2004 Program Assessment Rating Tool report

                                      •    FY 2006 FAS strategic Plan

                                      To obtain background data on the GSM-102 program and information on
                                      procedures used in operating the program, we interviewed the following:

                                      •    Director of FAS’ Credit Programs Division and its branch chiefs

                                      •    FAS’ Compliance Staff personnel

                                      •    FSA’s Export Accounting Office Branch Chief

                                      •    Credit Underwriter from the Export-Import Bank



7
    There are 20 countries/regions eligible for the GSM-102 program. Regions include: Baltic, Caribbean, Central America, Central Europe, Eurasia,
    Middle East, South America, Southeast Asia, Southeast Balkan, Southeast Europe, and Southern Africa. Countries include: China/Hong Kong, India,
    Korea, Mexico, Pakistan, Russia, Sri Lanka, Tunisia, and Turkey.
    USDA/OIG-Audit No. 07601-2-Hy                                                                                                        Page 10
                                      We did not evaluate whether export credit guarantees constituted a subsidy in
                                      violation of trade agreements. The dispute was arbitrated by the WTO acting
                                      in its role as the international organization dealing with the global rules of
                                      trade between nations. In September 2004, the WTO ruled against the United
                                      States concluding that the GSM-102 program was subsidizing export
                                      activities because premiums were inadequate to cover long-term operating
                                      costs and losses.

                                      As a result of a WTO ruling, FAS modified the GSM-102 program. 8
                                      Acknowledging that the long-term effect of changes to the
                                      GSM-102 program will not become apparent for several years, we did not
                                      review the long-term sustainability of the GSM-102 program. In addition, we
                                      concluded that it is too early to assess the effect of the July 2005 program
                                      changes on default rates and program activity.

                                      We conducted this performance audit in accordance with the Generally
                                      Accepted Government Auditing Standards. Those standards require that we
                                      plan and perform the audit to obtain sufficient, appropriate evidence to
                                      provide a reasonable basis for our findings and conclusions based on our
                                      audit objectives. We believe that the evidence obtained provides a reasonable
                                      basis for our findings and conclusions based on our audit objectives.




8
    FAS modified the GSM-102 program in July 2005 to bring it into compliance with the WTO ruling. Specifically, FAS eliminated other export credit
    programs, tightened eligibility standards, increased guarantee premiums, implemented a risk-based premium structure, requested a legislative change to
    remove the one-percent premium cap, and now reviews the fee structure on a quarterly basis to determine the need for premium adjustments.
    USDA/OIG-Audit No. 07601-2-Hy                                                                                                              Page 11
Exhibit A – Agency Response
                                Exhibit A – Page 1 of 2




USDA/OIG-Audit No. 07601-2-Hy                 Page 12
Exhibit A – Page 2 of 2
